                               Office of Inspector General
DEPARTMENT OF HOMELAND SECURITY
     Office of Inspector General



  Transportation Security Administration 

     Single Source (Noncompetitive) 

              Procurements 





OIG-08-67                        June 2008
                                                                  Office of Inspector General

                                                                  U.S. Department of Homeland Security
                                                                  Washington, DC 20528




                                 June 12, 2008

                                        Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the strengths and weaknesses of the Transportation Security
Administration’s single source (noncompetitive) procurement process. We reviewed
relevant policies and procedures, contract files, and applicable documents and
interviewed employees and officials of the component agency.

The recommendations herein have been developed to the best knowledge available to our
office and have been discussed in draft with those responsible for implementation. It is
our hope that this report will result in more effective, efficient, and economical
operations. We express our appreciation to all of those who contributed to the
preparation of this report.




                                        Richard L. Skinner 

                                        Inspector General 

Table of Contents 


Executive Summary .............................................................................................................1

Background ..........................................................................................................................2 

Results of Audit ...................................................................................................................3 

     TSA Complied with Some, But Not All, Procurement Requirements ..........................3 

     Internal Controls Need Improvement ............................................................................7 

Noncompliances Prevent Appropriateness Determination ..................................................8 

Recommendations................................................................................................................9 

Management Comments and OIG Analysis ......................................................................10 

Appendix A: Purpose, Scope, and Methodology.............................................................12 

Appendix B: Management Comments on the Draft Report ............................................14 

Appendix C: TSA Single Source Contracts Awarded During Fiscal Year 2006 ............20 

Appendix D: Compliance with Single Source Requirements..........................................22 

Appendix E: Concurrence and Approval Levels for TSA Single Source 

     Procurements................................................................................................................23 

Appendix F: Major Contributors to this Report..............................................................24 

Appendix G: Report Distribution ....................................................................................25 





Abbreviations
DHS                        Department of Homeland Security
GAO                        Government Accountability Office
TSA                        Transportation Security Administration
OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                Transportation Security Administration policy promotes the use of
                competition to acquire goods and services and allows single source
                contracts when they are in the best interest of the agency and the
                rational basis is documented. This report describes the results of
                our audit to determine whether the Transportation Security
                Administration properly justified less than full and open
                competition for single source contracts. Specifically, we reviewed
                the Transportation Security Administration’s compliance with
                policies and procedures applicable to fiscal year 2006, single
                source contracts.

                The Transportation Security Administration complied with some
                policies and procedures for awarding single source procurements
                in fiscal year 2006, but did not comply with others, such as
                documenting market analysis, obtaining required prior
                concurrences and approvals, and describing actions to remove
                barriers to future competition. The explanations that contracting
                officers, program managers, and other knowledgeable individuals
                provided us for the noncompliances indicate that the
                Transportation Security Administration needs to improve its
                internal control environment.

                The noncompliances prevent the Transportation Security
                Administration from readily substantiating that its single source
                procurements were appropriately awarded in 2006. Consequently,
                the Transportation Security Administration does not know whether
                it is involved in contractual arrangements that are in the best
                interest of or provide the best value for the government.

                We are recommending measures that, when implemented, will
                increase the likelihood that the Transportation Security
                Administration’s single source procurements comply with
                applicable policies and procedures, are fully justified, and are
                appropriate. The Transportation Security Administration
                concurred with the recommendations in this report.



                    TSA Single Source (Noncompetitive) Procurements

                                          1
Background
                           In the wake of the September 11, 2001, terrorist attacks, the
                           Congress established the Transportation Security Administration
                           (TSA) within the Department of Transportation. TSA’s primary
                           mission is to strengthen the security of all modes of transportation.
                           Because TSA was created in part from components of the Federal
                           Aviation Administration, TSA inherited the Federal Aviation
                           Administration’s exemption from the Federal Acquisition
                           Regulation. This exemption allows TSA to contract with a single
                           source when it is determined to be in the best interest of the agency
                           and the rational basis is documented. In March 2003, TSA
                           transferred to the Department of Homeland Security (DHS), but
                           retained its Federal Acquisition Regulation exemption. TSA uses
                           its own Transportation Security Administration Acquisition
                           Management System, which has less stringent requirements for
                           noncompetitive procurements than the Federal Acquisition
                           Regulation. The Consolidated Appropriations Act, 2008, repealed
                           TSA’s exemption, effective June 2008.1

                           TSA policy promotes the use of competition to award contracts.2
                           Program managers and contracting officers are responsible for
                           promoting a competitive environment, including structuring
                           acquisition strategies to ensure the availability of competitive
                           suppliers. TSA may contract with a single source when it is in the
                           best interest of TSA and the program manager documents a
                           rational basis, such as national emergency, standardization, or only
                           one source available, in a business clearance memorandum,
                           negotiation memorandum, or single source justification. The
                           program manager also must include in the document a statement of
                           actions the office plans to take to overcome barriers to future
                           competition. Moreover, the program manager must obtain
                           specified program, legal, and acquisition concurrences and
                           approvals before contract award. The required concurrence and
                           approval levels vary with the estimated cost of fulfilling the
                           contract requirements. Noncompetitive contracts worth less than
                           $200,000 do not require approvals or concurrences above the
                           contracting officer level.



1
    Section 568, Public Law 110-161

2
    TSA, Competition and Single Source Acquisition, Management Directive No. 300.4.



                                TSA Single Source (Noncompetitive) Procurements

                                                      2
                Except in national emergencies, a market analysis must support a
                single source procurement request. According to the Office of
                Acquisition Concept of Contracting Operations, the program
                office leads the market research effort; however, the contracting
                officer must ensure that contract documents, acquisition plans, and
                the solicitation appropriately consider the marketplace for the
                goods and services to be procured.

Results of Audit
                In 2006, TSA complied with some policies and procedures for
                awarding single source procurements, but did not comply with
                others. TSA’s internal control environment was not sufficient to
                ensure compliance with all requirements, such as market analysis,
                appropriate approvals, and plans to remove barriers to future
                competition. Consequently, TSA was not able to substantiate
                readily that its single source contracts awarded in 2006 were
                appropriate. Also, TSA does not know whether its commitment to
                competition was sufficient and its contractual arrangements are in
                the best interest of or provide the best value for the government.

     TSA Complied with Some, But Not All, Procurement 

     Requirements

                TSA complied with some, but not all, requirements for its 16
                single source contracts awarded in 2006 (Table 1). One contract,
                the $225,000 spectrometer procurement, met all requirements, such
                as written rational basis, documented market analysis,
                concurrences and approvals, and actions to remove barriers to
                future competition. The remaining 15 contracts did not comply
                with at least one requirement. All of the contracts had the required
                written rational basis (Appendix D).




                    TSA Single Source (Noncompetitive) Procurements

                                          3
                                                                       Market Analysis: TSA requires
                            Table 1: Compliance with Key               a market analysis to support a
                            Requirements for TSA 2006,
                            Single Source Contracts                    single source procurement
                                                                       decision. TSA defines a market
                                                   Contracts in        analysis as “the review,
                               Requirement         Compliance
                                                  (Percent of Total)   comparison and evaluation of
                                                                       information gathered from the
                            Written rational
                                                         16            marketplace in order to determine
                            basis for single
                            source
                                                       (100%)          how to design work statements
                                                                       and specifications, and how to
                            Market analysis                 2          effectively and efficiently engage
                            documented                 (13%)
                                                                       industry when procuring required
                            Concurrences and
                                                            4
                                                                       goods and services.”3
                            approvals                  (25%)
                            documented
                                                                        Fourteen of TSA’s single source
                            Actions to remove                           contracts awarded in 2006 (87%)
                            barriers to future                10 *      did not have a market analysis
                            competition                      (77%)
                                                                        included in the contract file,
                            described
                                                                        described in the single source
                            * Two airport lease contracts and one small justification, or documented
                            business set-aside contract did not require
                            actions to remove barriers to competition.  elsewhere. The contracting
                            Source: OIG analysis of agency records.
                                                                        officers could not explain to us
                                                                        why market analyses were not in
                            the contract files or did not exist for these 14 contracts. TSA
                            provided us market analyses for contracts L and O.4

                            The contracting officers for the contracts without market analyses
                            emphasized to us that each single source justification contained a
                            market analysis statement, implying that the statements fulfilled
                            the market analysis requirement. However, these statements were
                            too general to constitute market analyses. For example, the single
                            source justification for the $2 million fingerprint collection and
                            processing contract included the statement, “No other vendor
                            currently provides the complete range of services and
                            infrastructure beyond fingerprint collection.” TSA provided no
                            evidence for this contract of the review, comparison, and
                            evaluation of information called for in the market analysis
                            definition.

                            Of the 6 contracting officers responsible for the contract files in
                            our review, 3 contracting officers told us that a market analysis
3
    TSA, Competition and Single Source Acquisition, Management Directive No. 300.4, January 14, 2004.
4
    We refer to each contract by a letter (A through P), rather than by vendor name.


                                 TSA Single Source (Noncompetitive) Procurements

                                                        4
should be a separate document in the contract file. Most contract
files for our sample contracts included the Contract Award File
Content coversheet specifying required elements; market analysis
is the third item listed on this cover sheet. The other 3 contracting
officers told us that a description of the market analysis should be
in the single source justification document. They said that the
market analysis is not required to be in the contract file as a
separate document. The relevant management directive is not
specific on the matter of how a market analysis should be
documented.

Prior Concurrences and Approvals: The TSA contracting
officers we interviewed correctly reflected written policy when
they told us that a single source justification must have appropriate
concurrence and approval signatures without exception before
contract award. For example, the acquisition division director
must approve single source justifications for requirements worth
between $200,001 and $500,000 (Appendix E). In addition to the
Division Director, the Deputy Assistant Administrator for
Acquisition must approve single source justifications for
requirements worth between $500,001 and $999,999.

Notwithstanding the contracting
officers statements to us, 11 of the           Table 2: Contracts with Missing
                                               Concurrences and Approvals
16 contracts (69%) did not
comply with all concurrence and                                 Estimated Contract
                                                Contract
approval requirements; the other 5                                    Value
contracts complied. Three of the                      D             $2,500,000
contracting officers who told us                      L               $564,462
that the concurrence and approval                     N               $233,000
policy had no exceptions awarded                      P               $215,000
4 of the contracts without some
required concurrences (Table 2).               Total Value          $3,512,462
These 4 noncomplying contracts                 Source: OIG analysis of agency data.
are worth more than $3.5 million.

In another instance, a contracting officer obtained the necessary
concurrences and approvals for a single source justification, but
contrary to TSA policy, not until after contract award.
Specifically, for the $2 million telecommunications procurement,
the contracting officer obtained the signatures about 9 months after
contract award. TSA awarded the base contract on December 15,
2005; the program office submitted the single source justification


    TSA Single Source (Noncompetitive) Procurements

                          5
to the Office of Acquisition on September 22, 2006. To explain
the urgency for this contract, TSA staff told us the previous prime
contractor was not paying its subcontractor. Consequently, TSA
decided to contract directly with the subcontractor.

For this contract, program office staff told us the single source
justification was completed on time, but review, concurrence, and
approval took a long time due to changes in approval thresholds,
key program and procurement personnel, and workload priorities.
According to the single source justification, the TSA Assistant
Administrator for Acquisition verbally approved the base contract
award to ensure continuity of services. In an email to us, the
Deputy Assistant Administrator for Acquisition agreed that the
urgent and unusual nature of this award and a change in personnel
meant, “Documentation was not completed as timely as one would
normally expect."

The TSA management directive does not provide for waivers of
concurrence requirements. However, 2 contracting officers told us
they accept the signature of a program manager’s superior when
the program manager does not sign the single source justification
as required. This scenario occurred for 6 of the 16 contracts (38%)
in our audit. The negotiation memorandum for another contract
included the statement, “It was agreed that no concurrence is
required due to end of year workload and short manpower.”

The Office of Acquisition created a single source justification
template to facilitate the awarding of single source contracts.
However, the program offices modified it, in some cases
eliminating required signature lines. For example, the Threat
Assessment and Credentialing office altered the template and did
not include all required signature lines on the single source
justifications for 4 of the 16 contracts we reviewed: B, G, I, and K.
The required program manager signature line was missing on each
of the 4 single source justifications; the program office director’s
signature line was missing on 3 of the 4 contracts; and the program
office assistant administrator’s signature line was missing on 2 of
the 4 contracts.

Actions To Remove Barriers To Competition: TSA policy
provides that TSA may award single source contracts because of
urgency. At the same time, the policy requires action “to facilitate
competition for requirements that extend beyond the period of


    TSA Single Source (Noncompetitive) Procurements

                          6
          immediate urgent need,” and a description of such action in the
          single source justification.

          Ten of 13 contracts (77%) complied with the requirement to
          describe in the single source justification actions to remove
          barriers to future competition; 3 contracts did not comply. The
          requirement did not apply to 3 other contracts.


          Table 3: Contracts Without Actions                  The 3 non-complying
          to Remove Barriers to Future
          Competition Described                               contracts have several
                                                              remaining option years
                                                 Estimated    (Table 3). Exercising these
                           End of Last
           Contract                                Value
                             Option
                                                 (millions)
                                                              options without considering
                                                              actions to remove barriers
              K          Mar. 1, 2009               $2.0      to competition might not
                                                              provide TSA the best value
              D          Apr. 30, 2010              $2.5
                                                              for obtaining these goods
              B          Dec. 31, 2010              $8.5      and services.
               Total Value                         $13.0

          Source: OIG analysis of agency data.



Internal Controls Need Improvement
          Contracting officers, program managers, and other knowledgeable
          individuals provided us a variety of explanations for the
          noncompliances on TSA’s single source contracts in 2006, such as
          personnel changes and urgency. Together, these reasons indicate
          that TSA’s internal control environment was not sufficient to
          ensure that most single source contracts complied with applicable
          requirements.

          For example, contracting officers and program managers did not
          always properly execute single source transactions, as discussed
          above. Also, contracting specialists and contracting officers did
          not request or obtain sufficient supporting documentation and
          review it to determine that competition was not feasible or
          possible.

          In addition, some internal controls were poorly designed.
          Regarding market analysis, for example, TSA’s management


                TSA Single Source (Noncompetitive) Procurements

                                         7
                         directive provided vague guidance, leading contracting officers and
                         program managers to interpret requirements as they saw fit. TSA’s
                         management directive is not clear as to whether the market
                         analysis should be a separate document. Also, the directive does
                         not have specific instructions on when and how the program office
                         should submit the market analysis and to what extent contracting
                         officers should verify its adequacy and accuracy. The market
                         analysis is the most important element of the single source
                         justification; the confusion and inconsistency consequent to the
                         unclear guidance impedes TSA’s ability to readily validate these
                         contract awards.

                         TSA managers did not conduct routine reviews or self-
                         assessments, by which they would become aware of the ongoing
                         level of compliance. Had managers been aware of the
                         noncompliances, they would have been positioned to take
                         corrective action.

                         Finally, the weak internal control environment, i.e., the discipline,
                         structure, and climate that influences the quality of internal
                         control,5 likely contributed to these conditions. For example, the
                         contracting officers’ willingness to accept incomplete single source
                         justifications indicates that their priority for servicing program
                         offices exceeded their motivation to comply with TSA policies and
                         procedures to promote the use of competition to award these
                         contracts. Moreover, contracting officers, program managers, and
                         their supervisors faced few, if any, professional consequences for
                         failing to comply with single source policies and procedures. TSA
                         did not provide evidence of counseling or disciplinary actions for
                         the individuals responsible for the noncompliances we identified.
                         TSA needs to improve its internal controls to increase compliance
                         with single source procurements policy and requirements.

Noncompliances Prevent Appropriateness Determination
                         The noncompliances prevent TSA from readily substantiating that
                         its single source procurements in 2006 were appropriately
                         awarded. Without documented market analyses, TSA has no
                         assurance that it was aware of and fully considered available
                         sources for fulfilling mission requirements. Also, without

5
 Government Accountability Office, Standards for Internal Control in the Federal Government,
GAO/AIMD-00-21.3.1, November 1999, page 8.


                              TSA Single Source (Noncompetitive) Procurements

                                                    8
            evidence of required concurrences and approvals, TSA has no
            assurance that its managers were informed and properly oversaw
            the acquisition activities with which they were entrusted.
            Furthermore, without documented actions to remove barriers to
            competition and indications that it implemented such actions, TSA
            has no assurance that it pursued acquisition strategies that enhance
            future competition.

            Consequently, TSA does not know whether its commitment to
            competition was sufficient and that it is involved in contractual
            arrangements that are in the best interest of or provide the best
            value for the government. TSA’s implementation of the
            recommendations we make in this report will increase the
            likelihood that future single source procurements promote
            competition and are in the best interest of TSA.

Recommendations
            We recommend that the Assistant Secretary:

            Recommendation 1: Determine whether exercising options on
            existing single source contracts will provide the government the
            best value for fulfilling mission needs, and if so, verify that the
            contract files adequately document the basis for the
            determinations, including market analysis and description of
            actions to remove barriers to future competition.

            Recommendation 2: Develop and implement a corrective action
            plan to improve internal controls associated with single source
            procurements. The plan should consider, at a minimum, the
            following measures:

               •	 Updating management directives and guidance to
                  clarify requirements for market analysis, such as the
                  level of detail, the contracting officer’s
                  responsibility for assessing its quality, and
                  submission and documentation.

               •	 Implementing a single source justification template
                  in which program offices cannot eliminate required
                  elements.




                  TSA Single Source (Noncompetitive) Procurements

                                        9
                •	 Establishing periodic reviews of single source
                   justifications and contract awards to improve
                   detection and remediation of noncompliances, and
                   when necessary, hold individuals accountable for
                   noncompliances.

                •	 Balancing incentives for contracting officers,
                   program managers, and their supervisors to award
                   contracts expeditiously while protecting TSA’s
                   interests and promoting competition.

Management Comments and OIG Analysis
             TSA provided clarification and comments on 4 areas of concerns
             about our report. Where appropriate, we revised the report to
             reflect TSA’s comments. TSA concurred with our
             recommendations and we consider them resolved.

             TSA disagreed with our statement that TSA policy on other than
             full and open contract awards is less stringent than the Federal
             Acquisition Regulation. TSA cited its lower thresholds for
             managerial approvals. Our statement refers to the 7 circumstances
             in which the Federal Acquisition Regulation permits sole source
             contract awards compared to TSA’s policy of single source
             contracting when it is in TSA’s best interest and the rational basis
             is documented. We agree that TSA’s levels of approval and
             required signatures start at a lower threshold. This distinction will
             cease to exist starting in June 2008, when new TSA contracts must
             comply with the Federal Acquisition Regulation.

             TSA commented that our discussion about market analysis did not
             appear to be consistent with TSA’s policy provision that the
             market analysis method and extent depend on the size, scope, and
             complexity of the procurement. However, TSA policy also
             specifies, “Mere conclusions without adequate objective
             supporting data are insufficient.” Program offices provided us
             2 market analyses with supporting documentation as noted in the
             report. Moreover, contracting officers told us that FedBizOpps
             notices do not fulfill the requirements for a market analysis.

             Another TSA area of concern about our draft relates to
             concurrence and approval requirements in a changing
             organizational structure. TSA commented that most offices

                 TSA Single Source (Noncompetitive) Procurements

                                       10
stopped using the title program office director after 2004 when
TSA issued the single source contracts management directive.
Particularly with respect to contract A, TSA wrote that it met
concurrence and approval requirements. We revised our report to
clarify our results on contract A. TSA acknowledged that it has
not updated its directive to reflect organizational changes.

TSA objected to our characterization of sample contracts as large.
We revised the report to reflect this comment.

TSA concurred with our recommendation #1, citing its process to
determine whether exercising each option is in the best interest of
the government. However, TSA’s response does not address
verifying the market analysis and efforts to remove barriers to
future competition in conjunction with a decision to exercise an
option. Consequently, we consider this recommendation resolved,
but open pending receipt of TSA plans to consider market analysis
and efforts to remove barriers to future competition in option
decisions.

TSA concurred with our recommendation #2, recognizing the need
for training program office staff and TSA’s June 2008 transition to
FAR compliance. We agree that TSA has addressed part of our
recommendation. Consequently, we consider this recommendation
resolved, but open pending additional information about holding
individuals accountable for awarding contracts expeditiously while
protecting TSA’s interests and promoting competition.




    TSA Single Source (Noncompetitive) Procurements

                          11
Appendix A
Purpose, Scope, and Methodology



                   Our audit objective was to determine whether TSA properly
                   justified less than full and open competition for single source
                   procurements. Specifically, we sought to answer the following
                   questions:

                      •	 Did TSA comply with its policies and procedures for single
                         source procurements?

                      •	 If non-compliances occurred, why did they occur?

                      •	 If non-compliances occurred, did they lead to improper
                         contract awards?

                   To focus on single source contracts where TSA seemed to have the
                   most discretion, we reviewed the 16 contracts that represented
                   about 46.5% of TSA’s obligations for not-competed procurements
                   in fiscal year 2006 (Table 4). These contracts were about 15% of
                   all TSA procurement obligations for fiscal year 2006 contracts and
                   task orders. The 16 contracts were categorized as only one source,
                   unique source, urgency, or follow-on. We did not review not-
                   competed task orders for contracts TSA and GSA awarded before
                   fiscal year 2006 and several other types of single source
                   procurements, such as those authorized by statute, essential
                   research and development, or standardization. We excluded
                   contracts with life values of less than or equal to $200,000,
                   because they do not require approval beyond the contracting
                   officer level, leaving the 16 contracts listed in Appendix C. One
                   contract in our population, the information technology
                   management contract, is worth $750 million. The other
                   15 contracts total about $32 million, with 10 contracts each worth
                   $1 million or more and 5 contracts worth less than $1 million each.
                   Relying on information from the Federal Procurement Data System
                   – Next Generation and the TSA Office of Acquisition, we did not
                   independently assess the reliability of computer-generated data.




                       TSA Single Source (Noncompetitive) Procurements

                                             12
Appendix A
Purpose, Scope, and Methodology



                   Table 4. TSA 2006 Contracts and Task Orders
                                                                                                  Percent of
                                 TSA 2006                     Number          Obligations
                                                                                                  Obligations
                   (A) All contract types and task
                                                                          $1,532,824,719*           100.0%
                       orders
                   (B) Not-competed contracts and
                                                                            $497,053,255             32.4%
                       task orders
                   (C) All single source contracts
                       and task orders (excludes
                       contracts authorized by
                                                                            $469,104,051             30.6%
                       statute, national security,
                       essential research and
                       development, etc.)
                   (D) Contracts and task orders
                       from only one source; unique;            122         $320,127,200             20.9%
                       urgent; or follow-on
                   (E) Contracts with estimated life
                       value less than or equal to               83            $2,871,169             0.2%
                       $200,000
                   (F) Contracts with estimated life
                                                                 16         $230,940,961             15.1%
                       value greater than $200,000
                   * As of December 2007

                   Source: Federal Procurement Data System – Next Generation ad hoc report as of May 2007, except
                   as noted.


                   We reviewed TSA contract files for required documentation. We
                   interviewed TSA procurement and program officials to obtain their
                   understanding of the requirements for single source acquisitions,
                   how these requirements are documented, and whether these
                   contracts complied with TSA’s policies and regulations.

                   We conducted our fieldwork between May 2007 and August 2007
                   at TSA headquarters. The audit was conducted under authority of
                   the Inspector General Act of 1978, as amended, and according to
                   generally accepted government auditing standards issued by the
                   Comptroller General of the United States.




                         TSA Single Source (Noncompetitive) Procurements

                                                 13
Appendix B
Management Comments on the Draft Report




                     TSA Single Source (Noncompetitive) Procurements

                                           14
Appendix B
Management Comments on the Draft Report




                     TSA Single Source (Noncompetitive) Procurements

                                           15
Appendix B
Management Comments on the Draft Report




                     TSA Single Source (Noncompetitive) Procurements

                                           16
Appendix B
Management Comments on the Draft Report




                     TSA Single Source (Noncompetitive) Procurements

                                           17
Appendix B
Management Comments on the Draft Report




                     TSA Single Source (Noncompetitive) Procurements

                                           18
Appendix B
Management Comments on the Draft Report




                     TSA Single Source (Noncompetitive) Procurements

                                           19
Appendix C
TSA Single Source Contracts Awarded During Fiscal Year 2006



                                                                             Obligations
                                                 Single    Estimated Life                   Period of
                           Contract                                           Through
                                              Source Basis     Value                       Performance
                                                                             May 2007

                   A: Develop, deploy,                                                     1-year base
                                          Ensure no
                   and maintain                                                            period and
                                          lapse in           $750,000,000   $211,736,353
                   information technology                                                  two 1-year
                                          service
                   infrastructure.                                                         options

                                                                                           1-year base
                   B: Software for Office
                                          Only one                                         period and
                   of Threat Assessment                        $8,480,000     $2,420,000
                                          source                                           four 1-year
                   and Credentialing.
                                                                                           options

                                           Unique
                                                                                           1-year base
                   C: Data management knowledge
                                                                                           period and
                   support for Information and skill of        $2,926,002     $1,438,632
                                                                                           two 1-year
                   Technology Division.    senior
                                                                                           options
                                           consultant

                   D: Specialized
                   passenger and freight      Unique
                                                               $2,500,000      $300,000    Through 2010
                   rail security and safety   source
                   training.

                                                                                           2-year base
                   E: Software to support Patent or data                                   period and
                                                               $2,400,000     $2,250,000
                   TSA staffing model.    rights                                           one 1-year
                                                                                           option

                                                                                           3-year base
                   F: Lease space for         TSA needs to                                 period and
                                                               $2,349,900     $2,349,901
                   TSA staff at an airport    occupy space                                 one 1-year
                                                                                           option

                   G: Maintenance of C-3
                   circuits for
                   telecommunication                                                       1-year base
                                         Ensure
                   service between                                                         period and
                                         continuity of         $1,958,772      $849,372
                   Annapolis Junction,                                                     four 1-year
                                         services
                   Maryland, and                                                           options
                   Colorado Springs,
                   Colorado.

                                                                                           8-month base
                   H: Lease space for       TSA needs to                                   period and
                                                               $1,448,598      $426,059
                   TSA staff at an airport. occupy space                                   5-month
                                                                                           option
                                                                                           October 1,
                   I: Software for watch Unique
                                                                                           2006, until
                   list activities for      source,            $1,299,995     $1,300,000
                                                                                           April 30,
                   domestic air passengers. urgent
                                                                                           2007

                   J: Software and                                                         6-month base
                   training to support        Standardiza-                                 period and
                                                               $5,420,584     $5,420,584
                   electronic time and        tion                                         one 1-year
                   attendance system.                                                      option




                         TSA Single Source (Noncompetitive) Procurements

                                                 20
Appendix C
TSA Single Source Contracts Awarded During Fiscal Year 2006



                                                                             Obligations
                                                Single    Estimated Life                    Period of
                           Contract                                           Through
                                             Source Basis     Value                        Performance
                                                                             May 2007

                                            No vendor
                                            currently
                   K: Operational support provides the
                   in the collection and    complete                                       1-year base
                   processing of            range of                                       period and
                                                               $2,000,000      $730,000
                   fingerprints for the TSA services and                                   three 1-year
                   Alien Flight Students    infrastructure                                 options
                   Program.                 beyond
                                            fingerprint
                                            collection

                   L: Hardware, software,
                   and technical support of
                   the high-speed solution
                                            Only one
                   for the TSA Remote                           $564,462       $564,462    3 years
                                            source
                   Access to Classified
                   Enclaves Remote
                   Access Program.

                   M: Root cause analysis
                   of general ledger
                   manual adjustments
                   from 2002 to 2004,        Only one
                                                                $483,080       $483,080    4 months
                   purchase order analysis, source
                   general ledger cleanup,
                   budgetary transaction
                   review, and final report.

                   N: Enhanced metal        Existing
                                                                $233,000       $233,000    2 years
                   detectors.               source

                                                                                           Delivery
                   O: Spectrometer for
                                            Unique                                         4 months to
                   canine explosives                            $224,518       $224,518
                                            source                                         5 months
                   training aid purposes.
                                                                                           after order

                   P: Software that
                   calculates complex
                   algorithms to identify
                                            Only one
                   potential launch areas                       $215,000       $215,000    1 year
                                            source
                   and threat profiles
                   within airport
                   footprints.

                   Total                                     $782,503,911   $230,940,961
                   Source: OIG summary of agency data.




                        TSA Single Source (Noncompetitive) Procurements

                                                21
Appendix D
Compliance with Single Source Requirements



                                                                                               Actions to Remove
                                    Written Rational          Market          Concurrences and Barriers to Future
                                    Basis for Single         Analysis            Approvals        Competition
                       Contract          Source             Documented          Documented         Described
                          A                 Yes                   No                   Yes                     Yes
                          B                 Yes                   No                   No                      No
                         C*                 Yes                   No                   Yes                     n.a.
                          D                 Yes                   No                   No                      No
                          E                 Yes                   No                   Yes                     Yes
                         F**                Yes                   No                   Yes                     n.a.
                          G                 Yes                   No                   No                      Yes
                        H**                 Yes                   No                   No                      n.a.
                           I                Yes                   No                   No                      Yes
                          J                 Yes                   No                   No                      Yes
                          K                 Yes                   No                   No                      No
                          L                 Yes                  Yes                   No                      Yes
                          M                 Yes                   No                   No                      Yes
                          N                 Yes                   No                   No                      Yes
                          O                 Yes                  Yes                   Yes                     Yes
                          P                 Yes                   No                   No                      Yes
                        Total
                                             16                    2                    5                      10
                        (Yes)
                   n.a. Not applicable.
                   *     Small business set aside justification used instead of single source justification.
                   ** Airport lease negotiation memorandum used instead of single source justification.

                   Source: OIG analysis of agency data.




                           TSA Single Source (Noncompetitive) Procurements

                                                      22
Appendix E
Concurrence and Approval Levels for TSA Single Source Procurements



                   Estimated Value                   Signatures Required Before Contract Award
                   of Requirements
                                       Program Office Concurrence               Acquisition Office Approval

                   $1 to
                                                     none                                  none
                        $10,000

                                      a. Program Manager                 i.     Contracting Officer
                   $10,001 to         b. Office of Chief Counsel
                       $200,000


                                      a. Program Manager                 i. Contracting Officer
                   $200,001 to
                                      b. Office of Chief Counsel         ii. Division Director
                       $500,000
                                      c. Program Office Director

                                      a. Program Manager                 i. Contracting Officer
                   $500,0001 to       b. Office of Chief Counsel         ii. Division Director
                       $999,999       c.   Program Office Director       iii. Deputy Assistant Administrator
                                      d. Assistant Administrator

                                      a.   Program Manager               i.     Contracting Officer
                   Over               b.   Office of Chief Counsel       ii.    Division Director
                   $1,000,000         c.   Program Office Director       iii.   Deputy Assistant Administrator
                                      d.   Assistant Administrator       iv.    TSA Business Advocate

                   Source: TSA, Competition & Single Source Acquisition, TSA Management Directive No. 300.4,
                   January 14, 2004.




                        TSA Single Source (Noncompetitive) Procurements

                                                23
Appendix F
Major Contributors to this Report



                    Rosalyn G. Millman, Director
                    Martha Barksdale, Audit Manager
                    Patricia L. Plummer, Auditor-in-Charge
                    Brian Smythe, Program Analyst




                        TSA Single Source (Noncompetitive) Procurements

                                              24
Appendix G
Report Distribution



                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Policy
                      Assistant Secretary for Office of Legislative Affairs
                      Assistant Secretary for Public Affairs


                      Transportation Security Administration

                      Assistant Administrator for Acquisition
                      OIG Liaison


                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner


                      Congress

                      Congressional Oversight and Appropriations Committees




                          TSA Single Source (Noncompetitive) Procurements

                                                25
Additional Information and Copies
To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG
web site at www.dhs.gov/oig.


OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •    Call our Hotline at 1-800-323-8603
    •    Fax the complaint directly to us at (202) 254-4292
    •    Email us at DHSOIGHOTLINE@dhs.gov
    •	   Write to us at 

           DHS Office of Inspector General/MAIL STOP 2600 

           Attention: Office of Investigations – Hotline 

           245 Murray Drive, SW, Building 410 

           Washington, DC 20528 


The OIG seeks to protect the identity of each writer and caller.
